OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID’S LEBANON
INDUSTRY VALUE CHAIN
DEVELOPMENT PROJECT

AUDIT REPORT NO. 8-268-14-001-P
JULY 8, 2014




RIG/Frankfurt
Office of Inspector General


July 8, 2014

MEMORANDUM

TO:               USAID/Lebanon Mission Director, Azza El-Abd

FROM:             Acting Regional Inspector General/Frankfurt, David Thomanek /s/

SUBJECT:          Audit of USAID’s Lebanon Industry Value Chain Development Project (Report
                  No. 8-268-14-001-P)

This memorandum transmits our final report on the subject audit. We have considered your
comments on the draft report and have included your responses, without attachments, in
Appendix II.

The report contains three recommendations to help USAID/Lebanon improve its Lebanon
Industry Value Chain Development Project. In its comments on the draft report, the mission
agreed with all three recommendations. Having evaluated management comments, we
acknowledge the mission’s management decisions on all three and final action on
Recommendations 2 and 3. Please coordinate final action on Recommendation 1 with the Audit
Performance and Compliance Division in the Office of the Chief Financial Officer.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Consulate
USAID Regional Inspector General
Giessener Strasse 30
60435 Frankfurt, Germany
http://oig.usaid.gov
CONTENTS
Summary of Results .................................................................................................................1

Audit Findings ...........................................................................................................................4

     Expected Result Was Not Defined ........................................................................................4

     Project Did Not Conduct Full Grant Sustainability Analyses in All Cases ...............................5

Evaluation of Management Comments....................................................................................6

Appendix I—Scope and Methodology .....................................................................................7

Appendix II—Management Comments ....................................................................................8
SUMMARY OF RESULTS
Despite Lebanon’s relatively small size, USAID/Lebanon believes the Middle Eastern nation has
many characteristics, such as geographic access to European markets, ability to produce early-
season fruits and vegetables, and a liberal business environment that should give it certain
competitive advantages in some markets. Nevertheless, officials at the mission believe that
many Lebanese products and services are less competitive than they could be, primarily
because 15 years of civil war have damaged infrastructure and depressed investment.

The mission awarded a 5-year, $41 million contract to Development Alternatives Inc. (DAI) to
implement the Lebanon Industry Value Chain Development Project. It started on
September 30, 2012, and ends on September 30, 2017. The goal was to unlock more of
Lebanon’s economic potential and increase incomes in rural areas by making targeted small
and medium-sized businesses more competitive. The contract defines a value chain as “a string
of companies working together to satisfy market demand.” After an initial assessment, the
project selected eight value chains: olive oil, rural tourism (which includes handicrafts),
floriculture, grapes, pome and stone fruits, 1 “rural basket products” (such as eggs and honey),
and processed foods. Through December 2013, the project obligated $16.8 million and spent
$5.1 million.

The Regional Inspector General (RIG)/Frankfurt conducted this audit as part of RIG/Cairo’s
fiscal year (FY) 2014 audit plan to determine whether USAID/Lebanon’s Industry Value Chain
Development Project is developing competitive value chains to increase income for rural
populations.

The audit found that, the project generally was making progress toward targets but lacked a
definition for a “fully functioning value chain” (page 4) that would enable the mission to evaluate
the impact of this project objective. In addition, security restrictions prevented the audit team
from conducting sufficient site visits to assess all project grants implemented as of March 2014.

The project had some accomplishments:

•     In March and April 2013, DAI completed value chain assessments that mapped out
      opportunities and strategies for the value chains under consideration. In May 2013, DAI
      selected eight for the project. Afterward, activities designed to strengthen the value chain
      began in earnest. As of March 5, 2014, DAI assisted more than 600 farmers through
      16 grants, primarily in villages hosting Syrian refugees.

•     DAI awarded two grants that showed potential and demonstrated elements of sustainability.
      One supported the creation of cross-country skiing, snowshoeing, and hiking attractions,
      and the other provided mechanical olive harvesters to cooperatives.

      The first activity provided skis, boots, snowshoes, and USAID-branded jackets (shown on
      the next page) for trail guides. The grant helped the beneficiary establish trails and signs
      (shown on the next page) and train the guides. The beneficiary had a clear business plan for
      earning revenue and reinvesting in ongoing training and equipment maintenance. The
      grantee cited requests from professional guides to book snow activities as evidence of

1
    Pomes are fleshy fruits like pears and apples that have seeds at the core.

                                                                                                 1
   market demand. Unfortunately, during the winter of 2013 and 2014 Lebanon received its
   lowest amount of snow in decades, which hurt business.




To help Lebanon’s tourism sector develop snowshoe and cross-country trails in rural areas,
USAID provided ticket booths, signs (right), and jackets for tour guides (left). (Photos by
RIG/Cairo, March 11, 2014)

The second grant provided mechanical olive harvesters (pictured below) to six cooperatives that
they then could rent to farmers. By renting this equipment from the cooperatives, farmers were
able to improve productivity while lowering their costs.




       Olive harvesters like these helped farmers in the villages of Ibrin and Douma boost
       their productivity. (Photos by OIG, March 6, 2014)

Nevertheless, the audit found project shortcomings listed below.




                                                                                             2
•   One expected result was not defined (page 4). The contract identifies “seven fully
    functioning value chains” as an expected result. However, neither the mission nor DAI
    defined what makes a value chain fully functioning.

•   The project did not conduct full grant sustainability analyses in all cases (page 5). There is
    no demonstrable demand for the products one grant facilitated.

In response to these audit findings, we recommend that USAID/Lebanon:

1. Collaborate with DAI to define “fully functioning value chains” in writing, and create an
   associated indicator in the monitoring and evaluation plan (page 4).

2. Document a sustainability assessment of handicraft activities before continuing with
   additional grants in the value chain (page 5).

3. Implement procedures to confirm that grant sustainability analyses (as required by the
   project’s grant manual) are complete and address both financial and operational
   sustainability (page 5).

Detailed findings appear in the following section. Appendix I contains information on the scope
and methodology. Management comments, without attachments, are included in Appendix II.
Our evaluation of management comments is on page 6.




                                                                                                3
AUDIT FINDINGS
Expected Result Was Not Defined
According to the contract, developing “fully functioning value chains” is an essential purpose of
the project. The contact states, “The project aims to increase the competitiveness of selected
value chains.” In addition, the contractual list of expected results includes “a minimum of
seven fully functioning, competitive value chains.”

However, the contract did not define what a fully functioning value chain was. Neither the
mission nor DAI could define the phrase either. This was not done because (1) the monitoring
and evaluation (M&E) plan did not include an indicator directly measuring it, (2) the intent of the
phrase was not resolved during project design, and (3) USAID/Lebanon’s country development
coordination strategy (CDCS), which helps define and align project goals with mission goals,
was in process when the project was being designed.

While the M&E plan included indictors such as Value of exports of targeted agricultural
commodities as a result of [U.S. Government] assistance that could measure progress toward a
more competitive or better functioning value chain, there was no indicator directly counting the
number of fully functioning value chains. In general, M&E plans should include indicators for all
expected results. For this project, the approved M&E plan appropriately included detailed
definitions for each indicator such that had the M&E plan included the development of an
indicator counting fully functioning value chains, an operational definition would have been
defined.

Furthermore, the intent of the phrase was not clarified during project design. The contracting
officer’s representative (COR) did not know why the phrase was not defined but suggested that
it was not defined because it was intended to indicate that other expected results were to be
achieved by working in seven value chains. Furthermore, DAI also could not explain why there
was no definition for a fully functioning value chain. Nevertheless, the contract lists seven fully
functioning value chains as an expected result.

Finally, the CDCS was in process when this project was designed. Had the CDSC been
completed the project goals would have aligned with the CDCS and that could have helped
clarify the definition of a “fully functioning value chain” in this case.

Defining fully functioning value chains is important for making management decisions and
evaluating results. Without a definition, the mission does not know when to stop spending
money in one value chain and divert resources to another. Likewise, the mission cannot know
whether the project has achieved its purpose and will not be able to use it when evaluating the
efficiency of various measures when designing future projects.

   Recommendation 1. We recommend that USAID/Lebanon collaborate with
   Development Alternatives Inc. to define a “fully functioning value chain” in writing, and
   create an associated indicator in the monitoring and evaluation plan.




                                                                                                 4
Project Did Not Conduct Full Grant
Sustainability Analyses in All Cases
USAID’s Automated Directive System 201.3.15.3 defines outcomes as sustainable when they
are able to “continue or evolve under their own momentum or actions, without continued donor
intervention” and requires that sustainability be incorporated into project design from the
beginning. Sustainability considerations include recurring costs and future income (collectively
referred to below as financial analysis) and local institutional capacity.

In addition, the grant manual developed for this project identified sustainability, both financial
and operational, as selection criteria for grants under contract. USAID’s project design
sustainability analysis tool also considers whether there is demonstrable demand for an activity
or service.

Of 16 active grants for the value chain project, only one had a sustainability analysis that
considered both financial analysis and institutional capacity. Four considered only the financial
analysis. For most grants, the analysis was simplistic and incomplete. For example,
one financial analysis reads, “Income generation and creating jobs for women who will ideally
continue providing handicrafts to identified buyers and participate in future fairs.”

The COR said that, given the quantity of grants, a full sustainability analysis of each one might
overwhelm the project, particularly because the mission had already conducted a cost-benefit
analysis for them. While the cost-benefit analysis fulfills the financial component of the
sustainability analysis, it ignores the institutional capacity component. Furthermore, as noted
above, in most cases the documented sustainability analysis consisted of only a couple of
sentences.

As a result, some grant activities may not be sustainable. For example, one grant under the
rural tourism value chain—specifically a handicrafts activity—provided kits and training to
women in rural areas to make simple bracelets, charms, and decorative soaps. However, the
women reported few sales, and the training did not cover sales or marketing techniques. The
project did not demonstrate demand for the activity. The beneficiaries asked for more supplies
to make more products despite reporting that most of their products remained in their homes as
inventory. DAI officials said follow-up training would focus on creating distinctive designs (but
not sales or marketing) to generate demand. DAI spent $53,000 on this activity with follow-on
activities planned. This could result in additional money spent on an unsustainable endeavor.

Therefore, we make the following recommendations.

   Recommendation 2. We recommend that USAID/Lebanon document a sustainability
   analysis and determine the sustainability of handicraft activities before allocating
   additional funds to the handicraft value chain.

   Recommendation 3. We recommend that USAID/Lebanon implement procedures to
   confirm that grant sustainability analyses (as required by the project’s grant manual) are
   complete and address both financial and operational sustainability.




                                                                                                5
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Lebanon concurred with all three recommendations.
Having evaluated the comments, we acknowledge management decisions on all three and final
action on Recommendations 2 and 3. A detailed evaluation of management comments follows.

Recommendation 1. USAID/Lebanon’s COR and DAI agreed on a clear, measureable
definition of a “functioning value chain.” Accordingly, DAI’s contract will be modified to replace
“fully functioning value chain” by “functioning value chain” and include the definition of a
functioning value chain. The target date for completing the contract modification is August 28,
2014. Accordingly, we acknowledge the mission’s management decision.

Recommendation 2. USAID/Lebanon received a sustainability analysis of the handicraft project
that DAI conducted and recommended a follow-up project that created marketing links for the
handicraft products and providing training on business management to the recipients. Based on
the mission’s comments and supporting documentation, we acknowledge the mission’s
management decision and final action on Recommendation 2.

Recommendation 3. USAID/Lebanon’s COR received and accepted the outline of the
sustainability analysis that will be done for each grant under the DAI contract. This outline
includes financial and operational sustainability analysis. Based on the mission’s comments and
supporting documentation, we acknowledge the mission’s management decision and final
action on Recommendation 3.




                                                                                                6
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted government auditing standards.
They require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions in accordance with our audit
objective. We believe that the evidence obtained provides that reasonable basis.

The purpose of this audit was to determine whether USAID’s Lebanon Industry Value Chain
Development Project is developing competitive value chains to increase income for rural
populations. The $41.7 million contract was awarded to DAI. The project obligated $16.8 million
and spent $5.1 million through December 2013.

The audit covered the project from its inception on September 30, 2012, through March 1, 2014.
In planning and performing the audit, we assessed the following significant internal controls:
COR files, site visit reports, and administrative approvals for invoices. We reviewed contract
deliverables reported complete. We assessed the adequacy of indicators, baselines, and targets
of the M&E, and inspected supporting evidence for reported results. The scope was limited by
security constraints. Because the Regional Security Office did not approve visits to all
16 grantees, we visited only 4. We conducted audit fieldwork from March 3, 2014, to March 18,
2014, at USAID/Lebanon and DAI in Beirut.

Methodology
To answer the audit objective, we met with personnel from USAID/Lebanon, DAI, and
beneficiaries. We reviewed documentation provided by USAID/Lebanon and DAI, including the
M&E plan, activity approval document, the contract and modifications, and quarterly reports.

To assess progress toward project goals, the audit team interviewed DAI employees to
understand reporting, measurement methods, and definitions, and we inspected supporting
documentation for all 14 project indicators as of December 31, 2013. We inspected support for
all reported results. To corroborate them, we requested site visits to all 16 grantees but the
Regional Security Office approved only 4. The default materiality threshold for review of
reported results was 10 percent; if errors in reported results exceeded 10 percent, we
considered that material.

The audit team conducted site visits to four cooperatives (under one grantee) benefiting from
one grant that provided mechanical olive harvesters, an olive oil exporter and grant beneficiary.
Additionally, we visited two rural tourism grantees and individual and organizational handicraft
beneficiaries (under another grantee). During site visits, we interviewed beneficiaries to
understand whether the project met their expectations and achieved intended results. Testing of
internal controls included review of COR files such as site visits, invoices, and contract
deliverables.




                                                                                               7
                                                                                    Appendix II



MANAGEMENT COMMENTS


                                                                  June 30, 2014

MEMORANDUM

To:               A/Regional Inspector General/Cairo, David Thomanek

From:             USAID/Lebanon Mission Director, Azza El-Abd/s/

Subject:           Audit of USAID’s Lebanon’s Industry Value Chain
                   Development Project (Report No. 6-268-14-00X-P)


USAID/Lebanon is in general agreement with RIG’s recommendations. The Mission has taken
corrective measures and implemented final actions for two Recommendations; Nos. 2 and 3,
thus, we are requesting closure upon final report issuance.

Recommendation No. 1: We recommend that USAID/Lebanon collaborate with
Development Alternatives Incorporated to define a “fully functioning value chain” in writing and
create an associated indicator in the monitoring and evaluation plan.

Mission Response: On June 26, 2014 the Contracting Officer Representative (COR) in
collaboration with the implementing partner Development Alternative Incorporated (DAI)
agreed on a clear and measureable definition of a “functioning value chain” as follows:

A functional value chain is a competitive and inclusive value chain. Whereby, competitiveness
can be measured by increase in sales, improvement in quality and productivity; and inclusiveness
can be measured by the number of value chain participants including micro, small and medium
enterprises (MSMEs), farmers and other organizations receiving assistance. The assistance can
include business development services, application of improved technologies or management
practices and facilitation of business linkages (Attachment A). The current monitoring and
evaluation plan of Lebanon’s Industry Value Chain Development (LIVCD) Activity includes
indicators that measure competitiveness and inclusiveness of value chains. These indicators are:
    - Value of incremental sales (collected at farm-level for small holders and firm-level for
        MSMEs) attributed to FtF implementation
    - Gross margin per hectare, animal or cage of selected product
    - Number of individuals who have received USG- supported short-term agricultural sector
        productivity or food security training

                                                                                              8
                                                                                         Appendix II


   -   Number of farmers and others who have applied improved technologies or management
       practices as a result of USG assistance
   -   Number of MSMEs, including farmers, and other organizations receiving business
       development services from USG assisted sources
   -   Number of MSMEs, including farmers, benefiting from new horizontal & vertical
       linkages

Accordingly, DAI contract no. AID-268-C-12-00001 will be modified to replace “fully
functioning value chain” by “functioning value chain” and include the definition of a functioning
value chain.

Target date for completion: August 28, 2014. A GLAAS requisition will be submitted by the
COR to OAA to include the modification required along with the incremental funding action.

Therefore, the mission believes that a management decision has been made. Evidence of
final action will be submitted to M/CFO/APC for their consideration and closure.

Recommendation No. 2: We recommend that USAID/Lebanon document a sustainability
analysis and determine the sustainability of handicraft activities before allocating additional
funds to the handicraft value chain.

Mission Response: On June 25, 2014, the Mission received a sustainability analysis of
handicraft project conducted by the implementer DAI (Attachment B).

The analysis recommends follow-up on the handicrafts production project through the
implementation of Phase 3 by creating marketing linkages and training on business management.
It is expected that Phase 3 will require an additional investment of approximately $7,500
inclusive of training and fees for participation in fairs. The $7,500 cost will be funded out of
other direct costs and short term technical assistance. It is expected that keeping with the same
level of return on the women’s labor, i.e. around $20,000 worth of sales over a six month period,
the women will be able to buy new material for production by the last quarter of 2015 and
LIVCD will be able to get a 100% return on its investment by the third quarter of 2015. If
LIVCD efforts are intensified in terms of market linkage creation, the process could be
significantly expedited and the initial investment in the rural women’s human and social capital
can start bearing fruit as soon as the first quarter of 2015.

Based on the sustainability analysis of the handicrafts activities, the implementer concurred with
the COR request to adopt the sustainability analysis recommendation and report on
implementation of the task and results obtained (Attachment C).

Based on the above, the Mission believes that final action has been completed and requests
closure of Audit Recommendation No. 2 upon report issuance.

Recommendation No. 3: We recommend that USAID/Lebanon implement procedures to
confirm that grant sustainability analyses (as required by the project’s grant manual) are
complete and address both financial and operational sustainability.


                                                                                                  9
                                                                                   Appendix II



Mission Response: On June 26, 2014, the COR received the outline of the sustainability analysis
that will be done for each grant under DAI contract no. AID-268-C-12-00001 (Attachment D).
This outline includes both financial and operational sustainability analysis. The COR accepted
the proposed outline and requested that the implementing partner adopt and implement this
analysis for all grants to be issued (Attachment E).

Based on the above, the Mission believes that final action has been completed and requests
closure of Audit Recommendation No. 3 upon report issuance.




                                                                                            10
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
